 Report No. D-2009-059     March 6, 2009




Air Force Management of the U.S. Government
      Aviation Into-Plane Reimbursement
                 Card® Program
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas and
requests can also be mailed to:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AIR Card®                     U.S. Government Aviation Into-Plane Reimbursement Card®
CPM                           Component Program Manager
DESC                          Defense Energy Support Center
DFAS                          Defense Finance and Accounting Service
FES                           Fuel Automated System Enterprise Server
GFC                           Government Fuel Card
MSC                           Multi Service Corporation
                                    INSP         RG      E
                                   DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704



                                                                                       March 6. 2009

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
              DIRECTOR DEFENSE LOGISTICS AGENCY

SUBJECT:        Force Management ofthe U.S. Government Aviation Into-Plane Reimbursement
             Card® Program (Report No. D-2009-059)


We are providing this report for information and use. We considered comments from the
Department oftne Air Force when preparing the final report.

The Director, Air Force Operations comments on the draft report conformed to the requirements
of DOD Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8866 (DSN 664-8866).
                     Report No. D-2009-059 (Project No. D2007-D000LD-0224.000)
                                            March 6, 2009

                Results in Brief: Air Force Management of
                the U.S. Government Aviation Into-Plane
                Reimbursement Card® Program

What We Did                                              What We Recommend
We evaluated whether the Air Force complied              We recommend that the Director, Air Force
with regulations in its use of the U.S.                  Operations:
Government Aviation Into-Plane                                 develop and disseminate supplemental,
Reimbursement Card® (AIR Card®) and                            Air Force-specific guidance and
whether the controls were effective for                         procedures on use of the AIR Card,
processing charge card payments for                            establish an organizational reporting and
transactions from January 1, 2005, through                      oversight structure for the AIR Card
June 13, 2007.                                                  Program,
                                                               develop an Air Force-specific training
What We Found                                                   program and ensure training for all
                                                                personnel involved in the AIR Card
We identified an internal control weakness. Air                 functions,
Force internal controls over the AIR Card were                 research questioned charges and request
inadequate for:                                                 refunds where applicable, and
       verifying and reconciling $14.4 million                cancel active AIR Cards for retired
        in charges,                                             aircraft.
       retaining receipts, and
       accounting for cards.                            Management Comments and
                                                         Our Response
As a result, Air Force units:                            The Air Force Director of Operations, Deputy
       did not investigate at least $284,322 in         Chief of Staff, Operations, Plans, and
        questioned billings and request                  Requirements agreed with the recommendations
        applicable credits;                              and has initiated actions to develop Air Force
       incurred questioned fuel and ground              AIR Card guidance, assign agency program
        service charges, totaling $456,737, for          coordinators at major commands, develop a
        retired aircraft no longer in service; and
                                                         standardized training program for all Air Force
       paid $1.6 million in questioned                  personnel involved with the AIR Card functions,
        noncontract fuel purchases in excess of
        contract fuel prices at locations with           and cancel AIR Cards when an aircraft is
        existing Defense Energy Support Center           retired. The Air Force comments were
        Into-Plane fuel contracts.                       responsive and meet the intent of the
                                                         recommendations.
We identified a total of $2.3 million in
questioned charges.




 The Defense Energy Support Center registered
“U.S. Government Aviation Into-Plane Reimbursement
Card” and “AIR Card” as DoD-owned trademarks.

                                                     i
            Report No. D-2009-059 (Project No. D2007-D000LD-0224.000)
                                   March 6, 2009


Recommendations Table
                         Recommendations             No Additional Comments
Management               Requiring Comment           Required
Director, Air Force                                  1., 2., 3., and 4.a., 4.b., 4.c.
Operations




                                       ii
Table of Contents

Results in Brief                                                    i

Introduction                                                        1

       Objectives                                                   1
       Background                                                   1
       Review of Internal Controls                                  3

Finding. Air Force Controls Over AIR Card Transactions
          and Accountability Need Improvement                       5

       Recommendations, Management Comments, and Our Response      19

Appendices

       A. Scope and Methodology                                    23
             Prior Coverage                                        25
       B. U.S. Government Aviation Into-Plane Reimbursement Card
             Program Roles, Responsibilities, and Accountability   27
       C. U.S. Government Aviation Into-Plane Reimbursement Card
             Program Hierarchy                                     31
       D. Defense Energy Support Center U.S. Government Aviation
             Into-Plane Reimbursement Card Training                33
       E. Data Call for Noncontract Fuel Purchases                 35

Management Comments

       Department of the Air Force                                 37
Introduction
This audit report is the second in a series of reports on the DoD management of the
U.S. Government Aviation Into-Plane Reimbursement Card® (AIR Card®). Previously,
we evaluated the Army’s program.

Objectives
Our overall audit objective was to evaluate whether the Air Force complied with
regulations in its use of the AIR Card and whether it had effective controls for processing
charge card payments for transactions from January 1, 2005, through June 13, 2007. See
Appendix A for a discussion of the scope and methodology and prior coverage related to
the objectives.

Background
The Air Force has two types of charge cards embossed with specific aircraft information:
an Identaplate for refueling on military installations and the AIR Card for refueling at
commercial airports. The Defense Energy Support Center (DESC) has a long-term goal
to replace the Identaplate with the AIR Card for use at all military installations. The
AIR Card is a commercially accepted charge card that DoD, Federal agencies, and State
and local law enforcement agencies use to purchase aviation fuel, fuel-related supplies,
and ground support services worldwide. Examples of ground services include deicing,
lavatory services, catering, towing, ramp fees, hangar rentals, and landing fees. The
embossed AIR Card shows the aircraft tail number, the responsible branch or agency, and
the AIR Card account number.

The AIR Card can be electronically swiped or
mechanically imprinted, or the information can be
handwritten onto a commercial delivery ticket. From
January 1, 2005, through June 13, 2007, DoD
Components used the AIR Card to purchase aviation
fuel and ground services worth about $1.1 billion.

Use of the AIR Card and Billing Process
DESC established into-plane contract agreements with commercial fuel vendors
worldwide, who are required to accept the AIR Card for aviation fuel purchased at a
contracted fuel rate. Aircrews must use the AIR Card to purchase aviation fuel at DESC
Into-Plane contract locations. They may also use it to purchase aviation fuel from
noncontract vendors when necessary; however, there is not a negotiated fuel rate at these
other locations.




                                             1
                              Figure 1. Aircraft Being Refueled




Source: Michael J. Freer, “Lockheed C-5A Galaxy,” Airliners.Net

Since January 1, 2005, DESC has tasked Multi Service Corporation (MSC), the current
AIR Card contractor, to issue AIR Cards to military units and other Federal civilian
agencies. MSC is responsible for providing AIR Card Web site training, processing
AIR Card transactions that include paying suppliers and billing units, and maintaining a
database of information on AIR Card users, transactions, AIR Cards, aircraft, and billing
and payment history. During the scope of our audit, from January 1, 2005, through
June 13, 2007, MSC processed 452,288 Air Force line-item transactions valued at
$691.2 million for aviation fuel, taxes, fees, and ground service charges. The MSC Web
site provides locations of approved aviation fuel merchants and additional AIR Card
Program information for cardholders, accountable officials, certifying officials, and
merchants.

An AIR Card transaction occurs when an aircraft lands at a commercial airport and
requires fuel or ground service support. The aircrew presents the AIR Card to the
supplier, who records the sale. The aircrew signs the purchase receipt and retains a copy
of the signed receipt for the aircrew unit’s1 files. For fuel, MSC sends billing information
to DESC, which processes the charge and authorizes the Defense Finance and
Accounting Service (DFAS) to pay the contract fuel provider directly, or to pay MSC for
noncontract fuel. For ground support services, MSC pays the merchant and then bills the
unit that owns the serviced aircraft.


1
 A unit includes organizations such as operations groups, maintenance groups, commands, squadrons, and
refueling wings.


                                                   2
Review of Internal Controls
We determined that a material internal control weakness existed in the Air Force’s
management of the AIR Card program as defined by DoD Instruction 5010.40. The Air
Force Component Program Manager (CPM) did not have adequate controls over the
AIR Card program. The CPM did not adequately oversee the AIR Card program at the
Major Command and unit levels, provide necessary oversight for units to account for all
AIR Cards issued, or periodically review AIR Card transactions. Recommendations 1
through 4.c., if implemented, will correct the material internal control weakness and
lower the risk of incorrect charges and payments. A copy of the report will be provided
to the senior official responsible for internal controls in the Air Force.




                                           3
Finding. Air Force Controls Over AIR Card
Transactions and Accountability Need
Improvement
Air Force units did not comply with AIR Card regulations. Specifically, they did not
have effective controls over the management of the card and did not always reconcile
card charges, retain card receipts, or account for cards in compliance with regulations.
Because the Air Force CPM2 believed that DESC policy and training were adequate, he
did not provide sufficient administration and oversight of subordinate commands. The
CPM did not develop supplemental guidance to implement DESC AIR Card policy,
establish an organizational structure to provide oversight and guidance to subordinate
units, or develop an Air Force-specific AIR Card training program.

As a result, Air Force units:
           did not review the validity of $14.4 million of questioned receipt transactions
            before or after payment,
           did not investigate and request applicable credits for at least $284,322 in
            questioned charges,
           incurred questioned charges totaling $457,000 for five retired aircraft, and
           incurred $1.6 million in questioned purchases of noncontract fuel in excess of
            contract fuel prices at locations with fuel contracts.

Unless the Air Force establishes the organizational structure to provide the required
guidance, oversight, and training, AIR Card inefficiencies will continue.

Air Force AIR Card Transactions
Controls over AIR Card receipt reconciliation and retention were inadequate. Units did
not reconcile charges recorded in the fuel system to AIR Card receipts. In addition, unit
accountable officials were not aware of receipt retention requirements, or they did not
obtain AIR Card receipts in support of fuel and ground service purchases.

Reconciling Charges With Receipts
After fueling or receiving ground services for their aircraft, aircrews sign a sales receipt.
Upon return to their assigned base, aircrews provide all receipts to their mission debrief
personnel, who should forward the receipts to the accountable official to reconcile a bill
before payment. Receipts should include the location, vendor, date, number of gallons or
type of service, fuel grade, aircraft tail number, and signature of the aircrew member.




2
    The Air Force Operations Group is the Air Force CPM for the AIR Card®.


                                                     5
The processes for billing and payment are different for fuel and ground services. The
AIR Card contractor, MSC, receives the bill from the vendor and passes contract fuel
bills directly to DESC for vendor payment. MSC pays noncontract fuel vendors and then
bills DESC. DESC certifies that appropriated funds are available for payment, transmits
the billing data to DFAS for payment, and enters fuel-billing information into the Fuel
Automated System Enterprise Server (FES). Since December 5, 2006, Into-Plane
contract fuel charges have also been included. FES allows officials, including unit
accountable officials, to view and verify fuel transactions and avoid payments of
questionable charges.

FES is a Web-based fuel system that collects, routes, and reports transactions among
bases and contractors, and provides visibility of bulk fuel assets and transactions to
Services, combatant commanders, vendors, DESC, DFAS, and other entities. The system
also interfaces with service financial systems for daily-automated financial obligation
feeds. Through the Military Standard Billing System, DFAS bills the Air Force units that
received the fuel. For ground services, the AIR Card contractor bills the Air Force unit
that received the service. The Air Force unit’s accountable official compares the charges
with receipts, and the certifying official certifies that the charges are correct and forwards
the bill to DFAS for payment. DFAS then pays the bill.

We visited 10 units at 9 Air Force sites. These units were under five Major Commands
and the Air National Guard, including the Air Education and Training Command; Air
Force Reserve Command; Air Force Special Operations Command; Air Mobility
Command; Air National Guard; and U.S. Air Forces in Europe. A detailed list of units
visited is provided by Major Command in Appendix A. From January 1, 2005, through
June 13, 2007, the sampled units processed 122,093 transactions totaling $244.9 million.

Of the 122,093 transactions, we judgmentally sampled 3,734, totaling $76.5 million. Of
these sampled transactions, the 10 units did not reconcile 2,095, totaling $14.4 million,
with FES or ground service invoices. See Table 1.
Our discussions with personnel and review at the units disclosed various reasons for not
performing the reconciliation. Reasons included not having receipts, being unaware of
requirements, having too little time to reconcile, having differing procedural
responsibilities, and having differing methodologies for reconciling and certifying
AIR Card transactions. For example, the five squadron fuel managers at the
12th Operations Group, Randolph Air Force Base, entered fuel and ground services
receipt transactions into a spreadsheet stored on a common drive. The fuel managers
retained the receipts. However, the fuel managers did not reconcile the transactions with
FES or ground service invoices because the managers believed the accountable official at
the 12th Operations Group performed the reconciliation. The accountable official did not
reconcile the transactions because she thought that the fuel managers or personnel at the
Air Force Materiel Command, Wright-Patterson Air Force Base, performed the
reconciliations.




                                              6
                                  Table 1. Unreconciled Transactions
                                                    Sample Size           Transactions Not Reconciled
                       Location               Charges          Amount      Charges           Amount
          th
 1.     12 Operations Group                         88        $245,959            88         $245,959
          th
 2.     47 Operations Group                         90         119,883            47           72,218
          th
 3.     60 Operations Group                        475       21,809,210         108         4,866,004
          th
 4.     86 Maintenance Group                       448        1,654,453         340           521,423
          th
 5.     89 Operations Group                        687        2,206,341         687         2,206,341
           th
 6.     108 Air Refueling Wing                     149        2,292,768         149         2,292,768
           nd
 7.     302 Aircraft Maintenance Squadron          359         917,734          315           418,748
           th
 8.     305 Operations Group                       477       20,487,213            2          111,437
           nd
 9.     352 Special Operations Group               286         897,714          286           897,714
           th
 10. 437 Operations Group                          675       25,830,050           73         2,723,744
        Total                                    3,734     $76,461,326*        2,095       $14,356,356
      *Note: Column does not total because of rounding.

In addition to visiting 10 units, we analyzed transactions in the AIR Card database
maintained by the contractor, MSC, to identify anomalies in the data. We determined
57 units made 215 fuel purchases that exceeded the capacity of the aircraft, totaling at
least 2.3 million gallons valued at $3.8 million. We issued a data call to the 57 units to
obtain explanations for the 215 questionable transactions.

Of the 57 units queried, 30 responded to our data call, stating 133 questionable
transactions totaling 1.4 million excess gallons, valued at $2.6 million, were caused by
recording the quantity in liters instead of in gallons, charging fuel to the wrong aircraft,
recording quantity errors on delivery tickets, and fueling more than one aircraft on the
same AIR Card. Of the 30 units responding to our data call, 5 failed to investigate and
request applicable credits for 13 transactions totaling 140,806 excess gallons, valued
at $284,322. See Table 2. When we notified the Air Force CPM of the 13 potential
overbillings, he told us that he had instructed operations group commanders to work with
MSC to correct the overbillings.
                       Table 2. Questioned Transactions Not Investigated
                                                           Number of      Overcharged
                                  Unit                    Transactions      Amount
          1.    23rd Flying Training Squadron                     2           $22,075
                  rd
          2.    33 Fighter Wing                                   1            48,445
                  th
          3.    47 Operations Group                               5             5,106
                  nd
          4.    62 Operations Group                               2           116,341
          5.    C-12 Program Office                               3            92,355
                 Total                                           13          $284,322




                                                    7
We also informed the Air Force CPM that the remaining 27 units did not respond to our
data call. Potential overbilling for the 27 units was $1.2 million for 896,960 gallons. He
stated that he established a mid-January 2009 completion date for the Major Command
agency program coordinators to investigate potential overbillings at the 27 units that did
not respond to our data call.

Also, in its database, MSC categorized ground services generated by Air Force units
under descriptions that did not match the specific categories provided on the purchase
receipts. Of 73 judgmentally sampled ground service transactions at one unit,
60th Operations Group, Travis Air Force Base, totaling $101,759, we determined that
MSC had miscategorized 21 transactions with charges of $16,436. For example, one
transaction receipt showed a charge of $884 for a Ramp Fee. Although the database had
a category for Ramp Fee, MSC recorded the charge under International Ground
Handling. Recording charges under incorrect categories hinders Air Force accountable
officials’ reconciliation of ground service bills with receipts and can result in payment of
erroneous charges. We notified the DESC AIR Card contracting officer about this
matter, and she took action. She told us DESC has weekly teleconferences with MSC
and CPMs to discuss on-going projects, including the issue of product codes. MSC is
contacting the vendors when they submit a miscellaneous charge and documenting the
correct charge. Also, in a July 18, 2008, letter, DESC directed MSC to formally
communicate to the vendors that proper coding is required.

DESC interim policy P-8, “[Government Fuel Card] Program Roles, Responsibilities, and
Accountability,” January 10, 2006, specifies roles, responsibilities, and accountability for
the AIR Card. The policy states that the certifying official is responsible for ensuring
timely reconciliation and payment of all invoices. See Appendix B for details on roles
and responsibilities.

The “DoD Government Charge Card Guidebook for Establishing and Managing
Purchase, Travel, and Fuel Card Programs,” January 21, 2005, which was updated
January 2006, states that the Air Force units’ accountable officials are to determine
whether all transactions are legal, proper, mission-essential, and correct; monthly billing
accounts are accurate; transaction documentation is the original; and informal compliance
reviews are conducted.

The Air Force CPM must issue supplemental guidance to require Air Force officials to
conduct a reconciliation of FES and ground service invoices. In addition, the Air Force
CPM should direct accountable officials at the five units to review the 13 questioned
overpayments, totaling $284,322, and request credits where applicable.

Retaining AIR Card Receipts
The Air Force must improve its record retention of AIR Card receipts. We judgmentally
sampled 3,734 transactions at the 10 units we visited under 5 Major Commands and the
Air National Guard. Of the 3,734 transactions reviewed, totaling $76.5 million, receipts
for 1,551 transactions, totaling $11.7 million, were missing. The receipts were missing



                                             8
because accountable officials and other personnel involved at the 10 units were not aware
of retention requirements or did not obtain the receipts from the aircrews, mission debrief
personnel, maintenance personnel, or the repair depot. See Table 3.

                               Table 3. Transactions Not Found, by Unit
                                                                Transaction               Percent
                                      Sample Size               Not Found                Not Found*
                Unit            Charges     Amount        Charges       Amount        Charges Amount
1.       12th Operations            88        $245,959        46       $129,101        52.3     52.5
         Group
2.       47th Operations            90         119,883        35          68,360       38.9     57.0
         Group
3.       60th Operations            475     21,809,210       108       4,866,004       22.7     22.3
         Group
4.       86th Maintenance           448       1,654,453      311        496,502        69.4     30.0
         Group
5.       89th Operations            687       2,206,341      334       1,555,542       48.6     70.5
         Group
6.       108th Air Refueling        149       2,292,768       42        405,516        28.2     17.7
         Wing,
7.       302nd Aircraft             359        917,734       315        418,748        87.7     45.6
         Maintenance
         Squadron
8.       305th Operations           477     20,487,213         2        111,437         0.4      0.5
         Group
9.       352nd Special              286        897,714       285        895,189        99.7     99.7
         Operations Group
10.      437th Operations           675      25,830,050       73       2,723,744       10.8     10.5
         Group
           Total                 3,734 $76,461,326** 1,551            $11,670,145**    41.5     15.3
        * Judgmental sample percentage does not generalize to universe.
      ** Column does not total because of rounding.

Our discussions with Air Force unit personnel disclosed that some had knowledge of
record retention requirements, and others did not. Actual receipt retention varied within
units from no knowledge of requirements and not retaining receipts to retaining receipts
for various periods. For example, the accountable official at the 352nd Special Operations
Group was not aware of AIR Card receipt retention requirements and had no receipts on
hand before our audit. However, Special Operations Group personnel were able to locate
one receipt for $2,525 from our sample of 286 transactions after we arrived, and various
other fuel receipts not included in our sample for 2005 and 2007. The unit was missing
receipts for 285 transactions (99.7%), totaling $895,189, of our sample totaling $897,414.
The receipts were missing because the accountable official and maintenance personnel
were unaware of a requirement to retain receipts and maintenance personnel did not




                                                     9
forward the receipts to the accountable official. Existing Air Force policy conflicts with
DoD policy on record retention, which may have contributed to the lack of receipt retention.

      DoD Regulation 7000.14-R, “Financial Management Regulation,” August 2000,
       volume 1, chapter 9, identifies the National Archives and Records Administration
       as the authority for disposing of Government records. National Archives and
       Records Administration General Records Schedule 6, “Accountable Officers’
       Accounts Records,” Paragraph 1a, “Accountable Officers Files,” December 1998,
       states that accountable officer’s financial files must be maintained on-site for
       Government Accountability Office audit for 6 years and 3 months.

      DESC interim policy P-8, January 10, 2006, directs AIR Card users to retain
       receipts for 6 years and 3 months.

      The Air Force Record Disposition Schedule Records Table 11-02, “Purchase of
       Aviation Fuel and Oil,” Rule 08.00, “Flying Operations – Aircraft Assignment,
       Utilization and Aviation Fuel Records,” modified May 2005, states that the Air
       Force invoices covering purchases from domestic commercial firms, Government
       activities other than the U.S. Air Force, or foreign government sources may be
       destroyed after 2 years.

      Air Force Record Disposition Schedule Records Table 65-19, “Financial
       Management – Commercial Services – Financial Records,” Rule 13, “Accrued
       Expenditures Paid,” modified August 2007, states that accrued expenditures paid,
       which are expenditure vouchers with original supporting documents, can be
       destroyed 6 years and 3 months after the period covered by account.

      The Air Force Record Disposition Schedule, “Records Management
       Implementing Instructions,” states that the records disposition schedules are
       mandatory for use by all Air Force activities.

Without receipts, accountable officials cannot perform reconciliations with FES records
or with invoices for ground services. The inability to reconcile receipts with bills could
result in payment of erroneous charges. To ensure receipts are retained, the Air Force
CPM should issue guidance requiring retention of AIR Card records.

Accountability for AIR Cards
Controls for accounting for AIR Cards were inadequate. Specifically, AIR Card data
sources were inaccurate, resulting in some aircraft appearing to have multiple AIR Cards
and retired aircraft having active AIR Cards. In addition, accountable officials did not
periodically check their inventory of AIR Cards against records in the MSC-maintained
database.




                                            10
Accuracy of the AIR Card Data Sources
Two data sources exist for the accountable officials to check AIR Cards officially
assigned to their unit. The first source is the MSC-maintained AIR Card database. The
accountable official is responsible for initiating any changes to the AIR Card database.
The accountable official contacts DESC directly to initiate a change. However, since
January 2007, the accountable official could also request a change through the
accountable official AIR Card Web site. DESC approves the change and then authorizes
MSC to make the change. The second source is FES. DESC keeps the same
MSC-maintained AIR Card data on FES and updates the information daily with
MSC-processed change records. Both data sources were inaccurate.

Multiple AIR Cards
In addition to visiting 10 units, we conducted a query of FES on AIR Cards active as of
September 11, 2007, which identified 6,470 aircraft with 6,552 AIR Cards assigned;
81 aircraft appeared to have multiple AIR Cards assigned. For example, at the
20th Operations Group at Shaw Air Force Base, an F-16C model, had three AIR Cards
assigned. All three AIR Cards were issued on the same day. The DoD Government
Charge Card Guidebook states that AIR Cards generally are limited to one per aircraft,
and exceptions require component-level approval. We provided this list of multiple
AIR Cards to DESC personnel, who compared the list with the AIR Card database.
DESC determined that MSC’s AIR Card database included a card status category of
“inactive” to allow MSC to process charges after an AIR Card was canceled. However,
FES did not include “inactive” as an approved status category, so FES listed inactive
AIR Cards as active. Therefore, FES listed multiple AIR Cards per aircraft as active
AIR Cards. As a result of the audit, the Air Force canceled all 82 multiple AIR Cards for
the 81 aircraft, and on January 15, 2008, DESC developed and implemented a procedure
to identify aircraft with multiple AIR Cards to correct the problem of multiple
AIR Cards.

Retired Aircraft
A query of FES on AIR Cards, active as of September 11, 2007, compared to a list of
retired aircraft provided by the CPM determined that the Air Force had 481 retired
aircraft with 483 active AIR Cards assigned to 42 units. DESC told us the AIR Cards
were not canceled because retired aircraft entering Davis-Monthan Air Force Base are
coded as being in a depot. Unless the losing unit’s accountable official notifies DESC of
the aircraft retirement, DESC would not know the AIR Card should be canceled. Upon
notification, DESC canceled 260 of the 483 AIR Cards. The Air Force continued to
review the remaining 223 AIR Cards.

Subsequently, we obtained a list from Davis-Monthan of aircraft that were out of service.
The Secretary of Defense directed the consolidation of all military aircraft storage and
disposition centers into a single center located at Davis-Monthan. The center provides
customer services, including aircraft restoration to flying status, limited depot-level
maintenance, and parts reclamation, in addition to storage and disposal. The list of
aircraft in storage, dated April 16, 2008, included all the retired aircraft in inventory. We
compared the list with the list of AIR Cards in FES to identify additional active


                                             11
AIR Cards. We identified an additional 118 active AIR Cards for retired aircraft and
provided the list to the Air Force for action. Of the remaining 341 cards (223 plus 118),
the Air Force and DESC notified us that they canceled 161 as of August 19, 2008. On
September 4, 2008, DESC informed us that it had terminated 179 more cards. The
remaining card belonged to an aircraft that the Air Force reactivated.

In addition, we compared the list of aircraft in storage with the list of AIR Cards in the
MSC-maintained AIR Card database to identify charges against retired aircraft. We
identified 5 aircraft that had incurred 74 questioned charges, totaling $457,000, after the
aircraft were retired. See Table 4.

                   Table 4. Aircraft With Charges After Retirement
                                      Date of                  Number
          Aircraft Tail              Arrival in   Date of Last   of          Total
           Number         Model      Storage      Transaction Charges       Charged
     1     60000108        T-37B       9/2/2005     8/4/2006       8            $2,958
     2     63007854       C-130E     12/19/2000     6/4/2007      61           401,882
     3     66000164       C-141B      2/19/2004    1/31/2006       1               279
     4     66008307         C-5A      1/21/2004    7/31/2005       1            50,948
     5.    84000068        C-21A      1/26/2007    4/19/2007       3               670
            Total                                                 74          $456,737

We provided the Air Force CPM with a list of the 74 charges, totaling $456,737, to
determine the validity of the charges. DESC notified us that the 71st Fighter Wing,
Vance Air Force Base, is disputing the eight charges totaling $2,958. The 463rd Airlift
Group, Little Rock Air Force Base, used one AIR Card for multiple aircraft for
61 charges totaling $401,882. The 436th Operations Group, Dover Air Force Base, was
charged $50,948 to the wrong aircraft. The Air Force continued to research the
$279 charge at the 164th Airlift Wing, Memphis Air National Guard, and the $670 charge
at the 86th Maintenance Group, Ramstein Air Base. On February 5, 2009, the Air Force
informed us that a DESC representative researched and finalized the $456,737 in
questioned charges.

The DoD Charge Card Guidebook requires that the AIR Card be assigned to specific
aircraft and stay with the assigned aircraft when it is transferred. The accountable official
should provide the CPM with the required information to cancel an AIR Card. It is the
responsibility of the transferring unit’s AIR Card accountable official to provide the
AIR Card contractor with the billing and aircraft information so that MSC can update the
AIR Card database.

Inventory of AIR Cards
We inventoried 343 of the 851 AIR Cards assigned to the 10 units visited. None of the
10 accountable officials periodically inventoried their AIR Cards or reconciled their
AIR Cards with the MSC-maintained AIR Card database. AIR Cards were kept on each
aircraft with maintenance personnel in control of the AIR Cards. Maintenance personnel
did not notify accountable officials when aircraft and corresponding AIR Cards


                                             12
transferred in or out of their unit. Accountable officials generally discovered changes in
card status when the units received charges against a new card or when the accountable
officials checked the MSC database or FES.

Our inventory of 343 cards on-hand compared with FES disclosed three discrepancies.
We found one canceled AIR Card on an aircraft at the 12th Operations Group, Randolph
Air Force Base and another at the 108th Air Refueling Wing, McGuire Air Force Base.
The 12th and 108th destroyed the canceled cards. We also found one card at the
352nd Special Operations Group, Royal Air Force, Mildenhall, UK, that was assigned to
another base according to FES. In addition, the FES list included 148 AIR Cards that
were not on-hand because the aircraft had been transferred to another base, were retired,
or could not be located. For example, six aircraft were listed on FES as active at the
60th Operations Group, Travis Air Force Base, but were not on the Air Force's list of
active or inactive aircraft, or in the local AIR Card and aircraft inventories.

The DoD Charge Card Guidebook states that it is the responsibility of the transferring
unit’s AIR Card accountable official to provide the AIR Card contractor with the billing
and aircraft information so that the contractor can update the AIR Card database.

At the time of our review, the Air Force did not have any requirement stating that the
accountable officials should reconcile the AIR Cards assigned to them in the AIR Card
database with actual AIR Cards and aircraft on site.

If accountable officials had conducted a periodic inventory and reconciled the assigned
AIR Cards with the MSC-maintained AIR Card database, they would have identified
most, if not all, aircraft with multiple AIR Cards and retired aircraft with active
AIR Cards. The Air Force CPM must issue guidance requiring accountable officials to
periodically reconcile all AIR Cards listed as assigned to them in the AIR Card database
with actual AIR Cards and aircraft on site. The CPM must also require the accountable
officials to correct the discrepancies noted in this report.

AIR Card Administration and Oversight
Administration, oversight, and controls over AIR Cards and charges were inadequate
because units lacked guidance, oversight, and training. The Air Force CPM, believing
DESC policy and training were adequate for Air Force purposes, did not:

      publish supplemental guidance to implement DESC policy,
      establish an organizational structure to provide oversight and guidance to
       subordinate units, or
      develop Air Force-specific AIR Card training.

As a result, in addition to the unreconciled transactions, erroneous billings, and charges
against retired aircraft, the Air Force incurred $1.6 million in charges for noncontract fuel
purchases in excess of contract fuel prices at the top 14 locations with fuel contracts.




                                             13
Policy and Guidance
Air Force Instruction 23-202, “Buying Petroleum Products, and Other Supplies and
Services Off-Station,” July 19, 1994, provided guidance on purchases of non-Air Force
aviation fuel. The Instruction was issued before the use of the AIR Card and provided
instructions on how the aircrew should handle receipts and how resource personnel
should certify vendor invoices. The instruction was rescinded May 26, 2006. As of
August 29, 2008, the Air Force had not issued guidance implementing DESC AIR Card
policy. None of the accountable officials at the 10 units reviewed was aware of any
current Air Force or Major Command policy or guidance on the management of the
AIR Card Program. Furthermore, accountable officials at six units under four Major
Commands, and the Air National Guard, were unaware of the DESC Web site or
guidance available to them. The Air Force CPM told us that he did not issue any policy
or guidance because he believed that DESC policy was adequate for Air Force purposes.

Organizational Structure
The Air Force’s AIR Card program structure did not provide for adequate oversight by
the Major Commands or installations to ensure that program processes were established
and implemented. Before February 16, 2005, the Air Force Comptroller and the
Petroleum Office were responsible for the management of the AIR Card program. After
February 16, 2005, the Air Force moved responsibility to the Air Force Operations
Group. On February 16, 2005, DESC requested that the Air Force provide a CPM for the
AIR Card program. The Air Force responded to DESC on September 1, 2005, naming
the Air Force Operations Group as CPM. Currently, the CPM office, within the Air
Force Operations Group, consists of the CPM and his action officer, who are responsible
for managing the AIR Card program. Their responsibilities to the AIR Card program are
as “other duties” and not part of their primary responsibility.

According to DESC interim policy P-8, the CPM is responsible for establishing a
management structure for coordinating and ensuring that the agency program coordinators
are properly appointed in writing, trained, certified, and capable of performing their duties
sufficiently to meet DESC-sponsored fuel charge card requirements. Below the CPM, the
responsibility for the AIR Card rests with the agency program coordinator located at Major
Commands. The agency program coordinator must maintain detailed knowledge and
understanding of the agency’s policies and procedures regarding the AIR Card program.
The agency program coordinator must communicate this information to Card users,
accountable officials, managers, and other responsible officials. Accountable officials are
responsible for supporting the certification of payment vouchers and documents for vendor
payment. See Appendix B for details on roles and responsibilities.

During the audit, we contacted 5 Major Commands and the Air National Guard for the
10 units to identify agency program coordinators. Officials for three of the Major
Commands and the Air National Guard stated they had no agency program coordinators
and provided no oversight, guidance, or training to units concerning the AIR Card
program. Additionally, they stated they received no AIR Card-related oversight,
guidance, or training from the CPM. The remaining two Major Commands – Air
Education Training Command and Air Force Special Operations Command – never


                                            14
responded to our inquiries regarding agency program coordinators, administration, and
oversight. Discussions with the 10 units visited confirmed they had not received any
AIR Card guidance or oversight from their Major Command or the Air National Guard.

After the completion of audit work, the CPM provided us with a list of agency program
coordinators for four of the nine Major Commands and the Air National Guard, but was
unable to provide us with the agency program coordinators for the remaining five Major
Commands. The list included agency program coordinators for the Air National Guard
and two of the five Major Commands involved in the audit. See Table 5.

                       Table 5. Agency Program Coordinators
                               Major Command               APC Identified
               1.   Air Combat Command                          Yes
               2.   Air Education and Training Command           No
               3.   Air Force Materiel Command                   No
               4.   Air Force Reserve Command                   Yes
               5.   Air Force Special Operations Command         No
               6.   Air Force Space Command                     Yes
               7.   Air Mobility Command                        Yes
               8.   Air National Guard                          Yes
               9.   Pacific Air Forces                           No
              10.   U.S. Air Forces in Europe                    No

The Air Force CPM must establish a proper organizational structure that includes agency
program coordinators at Major Commands to provide oversight and guidance (see
Appendix C for the AIR Card Program Hierarchy). The CPM must also ensure that the
agency program coordinators are properly appointed in writing, trained, certified, and
capable of performing their duties sufficiently to meet DESC requirements for sponsored
fuel charge cards. The Air Force CPM advised us that as of February 5, 2009, eight of
the nine Major Commands and the Air National Guard had assigned agency program
coordinators. The remaining Major Command was to identify the agency program
coordinator no later than February 2009.

Training
The CPM did not develop Air Force-specific AIR Card training because he thought the
DESC training was adequate. At the 10 units we visited, discussion with the assigned
accountable officials disclosed that most of them had received on-the-job training. This
involved discussion with the previous accountable officials on the duties and
responsibilities associated with the AIR Card. However, only 4 of the accountable
officials at the 10 units stated they had taken the DESC Web-based AIR Card training for
accountable officials. One of the accountable officials stated he considered the DESC
training an overview of the AIR Card program, and it was insufficient for management of
the Air Force AIR Card program. See Table 6.




                                          15
Our discussions with certifying officials at the 10 units disclosed that only one had
received the DESC Web-based training for certifying officials certifying ground service
charges. We further interviewed 43 flight crewmembers at the 10 units and found that
none had received the Web-based DESC AIR Card user training.

DESC interim policy P-8 states that the CPM is to develop, coordinate, publish, and
disseminate supplemental DoD Fuel Card policy and training materials for the fuel card
programs; provide access to agency-specific training sites; and ensure that all fuel card
program participants have access to adequate guidance, training, and assistance in routine
program matters.
                       Table 6. Accountable Official Training
                                                                 On-the Job    DESC
                                    Unit                          Training    Training
     1.     Air Education and Training Command/12th
                                                                    __          __
            Operations Group, Randolph Air Force Base, TX
     2.     Air Education and Training Command/47th
                                                                    —           No
            Operations Group, Laughlin Air Force Base, TX
     3.     Air Mobility Command/60th Operations Group,
                                                                    __          Yes
            Travis Air Force Base, CA
     4.     U.S. Air Forces in Europe/86th Maintenance
            Group/Maintenance Operation Squadron,                   Yes         Yes
            Ramstein Air Base, Germany
     5.     Air Mobility Command/89th Operations Group,
                                                                    Yes         Yes
            Andrews Air Force Base, MD
     6.     Air National Guard/108th Air Refueling Wing,
                                                                    —           No
            McGuire Air Force Base, NJ
     7.     Air Force Reserve Command/302nd Aircraft
            Maintenance Squadron, Peterson Air Force Base,          Yes         No
            CO
     8.     Air Mobility Command/305th Operations Group,
                                                                    Yes         Yes
            McGuire Air Force Base, NJ
     9.     Air Force Special Operations Command/352nd
            Special Operations Group, Royal Air Force               Yes         No
            Mildenhall, UK
     10.    Air Mobility Command/437th Operations Group,
                                                                    No          No
            Charleston, SC
           Note: A dash indicates information was unavailable.

The DESC training module on the DESC Fuel Card Management Web site includes Web
links to Federal and DoD charge card management regulations, Military Standard Billing
System guidance, AIR Card dispute process information, and financial records retention
policy. In addition to accountable official responsibilities, the training highlights the
primary responsibilities of those within the Air Force AIR Card program hierarchy,
including CPM, Commands, certifying officials, and AIR Card users. See Appendix D
for details.




                                                16
The CPM must develop an Air Force-specific AIR Card training program and provide the
training to all AIR Card officials and users involved in AIR Card functions.

Noncontract Fuel
In addition to the unreconciled transactions, erroneous billings, and charges against
retired aircraft, the Air Force incurred $1.6 million in questioned noncontract fuel charges
in excess of contract fuel prices for noncontract fuel purchased at locations with DESC
Into-Plane fuel contracts.

The MSC-maintained AIR Card database showed Air Force noncontract fuel purchases
from January 1, 2005, through June 13, 2007, of $130.4 million. From a limited
judgmental sample of 14 sites, totaling $25 million, we identified nine locations with
DESC Into-Plane fuel contracts where the Air Force made noncontract fuel purchases. For
example, noncontract fuel purchases at Prestwick, Scotland, totaled $3.3 million during the
audit period, but under the DESC Into-Plane contract in force at the same location during
that period, fuel would have cost only $2.2 million, a difference of $1.1 million.

At the top 6 locations, there were 577 noncontract fuel purchases, totaling $6.8 million,
made by 39 units under 5 Major Commands and the Air National Guard. See Table 7.
(See Appendix E for specific units involved.) We asked the 39 units with noncontract
fuel charges in excess of $10,000 to explain why noncontract fuel was acquired where
fuel contracts existed. Of the 39 units, 28 responded. Unit responses included:

           crews were unaware of the existence of the contract fuel vendor;
           mission planners sent the crew to a specific vendor;
           contract fuel service was not available;
           there was an insufficient quantity of contract fuel at the location;
           congestion at the contract fuel ramp would have caused excessive delays;
           American Embassy personnel arranged the refueling; and
           crews were not trained.

The units did not provide documentation to support their stated rationale for purchasing
noncontract fuel.
                         Table 7. Noncontract Fuel Purchases
                                Number      Number of            Gallons       Potential
            Command             of Units Transactions          Purchased        Savings
 1.   Air Force Materiel Command        1               8             45,077      $36,974
 2.   Air Force Reserve Command         8             109            437,749      458,769
 3.   Air Mobility Command             11             287          1,382,079      422,303
 4.   Air National Guard               16             121            413,843      471,549
 5.   Pacific Air Forces                1               5              9,999       11,910
 6.   U.S. Air Forces in Europe         2              47             30,433       35,282
        Total                          39             577          2,319,180     $1,436,787




                                            17
If contract fuel was purchased, it would have resulted in a total savings at these six
locations of $1.4 million. The remaining 11 units did not respond to our data call for
explanations for 138 noncontract fuel transactions, totaling $1.2 million, with potential
excess expenditures of $351,287.

DESC Instruction DESC-T-I-31, “Purchase of Aviation Fuel and Services at Commercial
Locations,” March 17, 2005, provides procedural guidance to AIR Card users who
purchase commercial aviation fuel and related ground services at commercial airports.
DESC-T-I-31 was issued as interim guidance pending inclusion in DoD 4140.25-M,
“DoD Management of Bulk Petroleum Products, Natural Gas, and Coal,” June 1994.3
The instruction states that aircrews are to restrict fuel and service purchases to DESC
Into-Plane contractors at commercial airports where DESC Into-Plane contract fuel is
available. Aircrews are authorized to purchase fuel and services from any available
source or AIR Card merchant when no DESC Into-Plane contract exists at the
commercial airport location.

The Air Force issued a memorandum on March 9, 2007, to the Major Commands
concerning “Air Force Policy on Using DESC Contracts When Fueling Aircraft.” The
memorandum stressed that when Defense Fuel Supply Points on military installations are
not available, units are to use DESC Into-Plane contract fuel providers to the maximum
extent possible. The memorandum provided a Web site to identify a list of DESC
Into Plane contract merchants at commercial airport locations and DESC’s Web site for
AIR Card information.

However, without proactive agency program coordinators at the Major Commands to
enforce this guidance, the memorandum’s message may not reach the intended recipients
or be adequately enforced. In addition, the Air Force CPM needs to issue guidance on
the use of noncontract fuel at contract locations. The guidance should require supporting
documentation indicating the rationale for using noncontract fuel.

Air Force Audit Agency Report
The Air Force Audit Agency issued Report F2003-0007-FC4000, “Air Force
Management of Aviation Fuel Purchases,” February 13, 2003, which recommended
developing guidance for the reconciliation of off-site fuel transactions, obtaining and
retaining receipts, and providing a training program for document control officers and
aircrews.

The Air Force concurred with the intent of the recommendations. It stated that it would
publish interim operating procedures within 30 days of receipt of interim guidance that
the Defense Logistics Agency was to develop in response to a DoD IG report, “Controls
for the DoD Aviation Contract Fuel Program (D2002LG-0006). (The report was
published June 29, 2004.) The Air Force stated it would implement final Defense


3
 The instruction supersedes DESC Instruction DESC-T-I-31, September 28, 2004. The instruction was
revised September 12, 2005; July 20, 2007; and May 9, 2008. Subsequently, it was renumbered
DESC-I-31. No material changes were noted in subsequent versions.


                                                 18
Logistics Agency guidance once it was published. The estimated completion date was
April 30, 2003. To date, the Air Force has taken minimal action to finalize and issue
policy.

Conclusions
The Air Force AIR Card implementing guidance and organizational structure must be in
place to allow the Air Force to oversee and manage its AIR Card program adequately.
Bills must be reconciled with receipts for fuel and ground services to minimize erroneous
payments. Furthermore, maintenance personnel must notify accountable officials when
aircraft ownership changes and accountable officials must periodically inventory the
AIR Cards, so that the AIR Card database can be updated and the AIR Card can be
tracked. The database must be accurate so that bills are routed to the correct Air Force
units. Finally, the Air Force must provide AIR Card training to all personnel involved in
the AIR Card program to reduce the number of errors in the process. These actions
should prevent or significantly reduce the risk of erroneous billings and misuse of the
AIR Card.

During the audit, DESC and the Air Force took steps to increase oversight of the
AIR Card program. As of September 4, 2008, DESC and Air Force officials canceled the
additional 82 cards assigned to the 81 aircraft identified with multiple cards and canceled
the cards assigned to retired aircraft. However, additional steps are needed in providing
guidance, oversight, and training.

Recommendations, Management Comments, and Our
Response
We recommend that the Director, Air Force Operations:
      1. Develop and disseminate Air Force supplemental U.S. Government
Aviation Into-Plane Reimbursement Card program guidance that includes
reconciling fuel transactions with the Fuel Automated System Enterprise Server,
reconciling ground service invoices with signed receipts, canceling AIR Cards for
retired aircraft, researching and requesting credits for charges incurred against
retired aircraft, retaining documentation, inventorying AIR Cards and aircraft
assigned, and documenting the rationale for using noncontract fuel at locations with
fuel contracts.

Department of the Air Force Comments
The Air Force Director of Operations, Deputy Chief of Staff, Operations, Plans, and
Requirements agreed with the recommendation and stated that the Air Force Component
Program Manager is working with other internal Air Force agencies, including the Air
Force Petroleum Office to modify, update, and create processes and guidance for
AIR Card users. He stated that the process to develop specific guidance began as early as
August 2008 and is ongoing.




                                            19
Our Response
The Air Force Director of Operations, Deputy Chief of Staff, Operations, Plans, and
Requirements comments are responsive. The actions planned and taken by the Air Force
satisfy the intent of the recommendation and will ensure compliance with DoD
regulations.

     2. Establish an AIR Card program organizational structure that includes
agency program coordinators at Major Commands to provide oversight and
guidance.

Department of the Air Force Comments
The Air Force Director of Operations, Deputy Chief of Staff, Operations, Plans, and
Requirements agreed with the recommendation and stated that all Air Force Major
Commands were directed to assign an agency program coordinator. In fact, 9 of the
10 Air Force Major Commands have assigned an agency program coordinator, and the
final Major Command is to identify its agency program coordinator no later than
February 2009. Further, he stated that each Major Command was allowed to place the
agency coordinator position where it would best meet operational, manpower, and other
requirements. He stated that they would work closely with the Air Force Component
Program Manager to ensure that proper oversight and guidance was provided to
individual wing refueling document control officers, accountable officials, and AIR Card
users.

Our Response
The Air Force Director of Operations, Deputy Chief of Staff, Operations, Plans, and
Requirements comments are responsive. The actions planned and taken by the Air Force
satisfy the intent of the recommendation.

      3. Develop an Air Force-specific training program and provide training for
all Air Force personnel involved in the AIR Card functions, including officials,
aircrew members, and maintenance personnel.

Department of the Air Force Comments
The Air Force Director of Operations, Deputy Chief of Staff, Operations, Plans, and
Requirements agreed with the recommendation and stated that the Air Force Component
Program Manager, in conjunction with each Air Force Major Command agency program
coordinator, is developing a standardized training program for all Air Force personnel
involved with AIR Card functions. He stated that the training would be based on existing
Defense Energy Supply Center Training and would be tailored to meet the Air Force
requirements. In developing the training, they would coordinate with the organizations
involved with the AIR Card. The training and information ideally would be similar to the
Navy’s Consolidated Card Program Management Division.

Once it is developed and funding requirements are established, the training will be
located at an Air Force Component Program Manager Web site that will be accessible to
card users. The agency program coordinators will review the training and ensure that


                                           20
accountable officials complete the training. They will also maintain a record of those
who took the training. Further, he stated that agency program coordinators will be
responsible for maintaining contact information for each accountable official and ensure
that documentation is completed when personnel change.

Our Response
The Air Force Director of Operations, Deputy Chief of Staff, Operations, Plans, and
Requirements comments are responsive. The actions planned and taken by the Air Force
satisfy the intent of the recommendation.

       4. Direct Air Force units to:
          a. Research the $284,322 in questioned charges incurred when fuel
             purchases exceeded aircraft capacity and request refunds where
             applicable.
          b. Cancel active AIR Cards for retired aircraft.
          c. Research and request appropriate credits for $457,000 in questioned
             charges incurred against retired aircraft.

Department of the Air Force Comments
The Air Force Director of Operations, Deputy Chief of Staff, Operations, Plans, and
Requirements agreed with the recommendation and stated that:

       In January 2009, the Air Force Component Program Manager contacted the
        agency program coordinators that oversee the units that made the fuel purchases
        exceeding aircraft capacity and requested the coordinators to research and request
        refunds if necessary and applicable.
       All active AIR Cards for retired aircraft on the list provided by DoD IG, were
        canceled, and since January 21, 2009, a new process was established to ensure
        AIR Cards assigned to aircraft being retired are destroyed.
       DESC researched and finalized the $456,737 in questioned charges incurred
        against retired aircraft.

Our Response
The Air Force Director of Operations, Deputy Chief of Staff, Operations, Plans, and
Requirements comments are responsive. The actions planned and taken by the Air Force
satisfy the intent of the recommendation.




                                            21
Appendix A. Scope and Methodology
We conducted this performance audit from July 2007 through January 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our finding and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our finding and
conclusions based on our audit objectives.

We reviewed policies, procedures, and instructions for the AIR Card program issued by
the Office of Management and Budget, DoD, DESC, and the Air Force. The various
documents provide guidance on fuel management and controls for processing AIR Card
transactions. We interviewed key personnel involved with the AIR Card at DESC, MSC,
DFAS, and the Air Force Operations Group, as well as Air Force personnel at
installations we visited. We evaluated the use of the AIR Card and the controls over
processing AIR Card payments. We reviewed supporting documentation for AIR Card
transactions, including fuel reports, merchant transaction receipts, and fuel tickets. To
evaluate controls over the AIR Card, we inventoried AIR Cards, determined whether
AIR Cards were assigned to retired Air Force aircraft, and determined whether aircraft
had multiple active AIR Cards assigned to them.

We analyzed data obtained from MSC by the DoD IG Data Mining Division on
AIR Card purchases from January 1, 2005, through June 13, 2007, and judgmentally
selected the units and installations to be visited based on the:

       number and dollar amount of total AIR Card transactions,
       aircraft and AIR Cards in one location,
       location (inside and outside the continental United States), and
       apparent issues from our data mining reviews.

To sample transactions and inventory AIR Cards, we chose 10 units under 5 Major
Commands and the Air National Guard. See Table.

 Command                              Unit
 Air Education and Training           12th Operations Group, Randolph Air Force Base, TX
 Command                              47th Operations Group, Laughlin Air Force Base, TX
 Air Force Reserve Command            302nd Aircraft Maintenance Squadron, Peterson Air Force Base, CO
 Air Force Special Operations         352nd Special Operations Group, Royal Air Force Mildenhall, UK
 Command
 Air Mobility Command                 60th Operations Group, Travis Air Force Base, CA
                                      89th Operations Group, Andrews Air Force Base, MD
                                      305th Operations Group, McGuire Air Force Base, NJ
                                      437th Operations Group, Charleston Air Force Base, SC
 Air National Guard                   108th Air Refueling Wing, McGuire Air Force Base, NJ
 United States Air Forces in Europe   86th Maintenance Group, Ramstein Air Base, Germany




                                                  23
For transactions sampled at each location, we compared charge information that the DoD
IG Data Mining Division provided with supporting AIR Card receipts. At each location,
we judgmentally selected transactions that MSC processed from January 1, 2005, through
June 13, 2007, for aircraft assigned to the unit. Additionally, we inventoried AIR Cards
for aircraft assigned to each unit.

We also analyzed data in the AIR Card database, maintained by MSC, and data in FES to
identify trends and questionable transactions. From this analysis, we sent data calls to the
units for explanations of noncontract fuel purchases at locations with fuel contracts, fuel
purchases exceeding aircraft capacity, multiple AIR Cards for individual aircraft, inactive
aircraft with active AIR Cards, and specific ground service purchases.

Further, we queried FES on AIR Cards active as of September 11, 2007, and compared it
to a list of retired aircraft provided by the CPM to determine whether the Air Force had
retired aircraft with active AIR Cards assigned.

Our audit scope was limited by nonresponse: 27 units did not respond to our inquiries
concerning 82 potential erroneous transactions. Potential overbilling for the 27 units was
$1.2 million. Further, the 30 units that did respond were unable to provide
documentation for 88 transactions totaling $1.7 million. In addition, 11 units did not
respond to our data call for explanations of 138 noncontract fuel transactions, totaling
$1.3 million with potential excess expenditures of $351,287. Finally, two Major
Commands did not respond to our inquiries regarding agency program coordinators,
administration, and oversight.

Use of Computer-Processed Data
We relied on computer-processed data from MSC, which were obtained by the DoD IG
Data Mining Division. We did not perform a formal reliability assessment of the
computer-processed data. However, we were able to establish data reliability for the
information by comparing data on AIR Card purchases with source documentation. We
did not find material errors that would preclude the use of computer-processed data to
meet the audit objective or that would change the conclusion of this report.

Use of Technical Assistance
We used the Data Mining Division to obtain computer-processed data from MSC, which
consisted of a database of 452,288 Air Force transactions from January 1, 2005, through
June 13, 2007, valued at $691.2 million for aviation fuel, taxes, fees, and ground service
charges.




                                            24
Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), and the
Department of Defense Inspector General (DoD IG) have issued three reports discussing
purchase cards and fuel purchases. Unrestricted GAO reports can be accessed over the
Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.

GAO
GAO-04-989R, “Sandia National Laboratories: Further Improvements Needed to
Strengthen Controls Over the Purchase Card Program,” August 6, 2004

DoD IG
DoD IG Report No. D-2007-132, “Army Use of and Controls Over the DoD Aviation
Into-Plane Reimbursement Card,” September 28, 2007

DoD IG Report No. D-2004-096, “Controls Over Purchase Cards at Naval Medical
Center San Diego,” June 29, 2004




                                         25
Appendix B. U.S. Government Aviation Into-
Plane Reimbursement Card Program Roles,
Responsibilities, and Accountability
DoD Executive Agent
The DoD Executive Agent1 is required to execute supply chain management for all DoD
bulk petroleum and to be responsible for bulk petroleum from the source of supply to the
point of customer acceptance. In addition, the DoD executive agent provides DoD with
comprehensive energy solutions, negotiates fuel discounts, and awards various fuel
supply and service contracts.

Government Fuel Card Program Management Office
The Under Secretary of Defense (Comptroller) formed a DoD Charge Card Task Force in
March 2002 that issued a report, “DoD Charge Card Task Force Final Report,”
June 27, 2002. The report evaluated DoD charge card programs and offered
25 recommendations for improving them, which included preparing DoD
Directive, 7400.aa, “Department of Defense (DoD) Charge Card Programs,” to assign
responsibilities for managing charge card programs. DoD officials developed the
Directive but it was not signed. However, in anticipation of its being signed, the Director
of DESC established the Government Fuel Card (GFC) Program Management Office by
General Order No. 06-04, June 15, 2004.

In 2006, DESC rewrote DoD Manual 4140.25-M, volume II, chapter 16, “DoD Fleet
Credit Card,” June 12, 2002. The revised chapter was renamed “GFC [Program
Management Office], DoD FLEET Card, AIR Card, SEA Card” and includes information
on the Program Management Office and each of the three GFCs. DESC submitted the
revised chapter on November 29, 2006, and resubmitted it on September 14, 2007, to the
Under Secretary of Defense for Logistics and Material Readiness, for review and
approval. As of February 18, 2009, the Under Secretary of Defense had not signed the
revised chapter.

To provide guidance to AIR Card users, DESC issued interim policies and procedures to
use until the revised DoD Manual 4140.25-M was issued. DESC interim policy P-8,
January 10, 2006, includes policy for roles, responsibilities, and accountability of the
AIR Card program.

The GFC Program Management Office established a Card Program Web site to provide a
central location for users to retrieve program information. The GFC public Web site
includes GFC policy and guidance, Service Components’ points-of-contact, training for

1
 An Executive Agent is the head of a DoD Component to whom the Secretary of Defense or his Deputy has
assigned specific responsibilities, functions, and authorities to provide defined levels of support for operational
missions or administrative or other designated activities that involve two or more DoD Components.


                                                      27
accountable officials and cardholders, information on aircrew use of AIR Cards, fuel
purchase data, merchant locations, and links to MSC, the AIR Card contractor’s Fuel
AIR Card Program Web site.

DESC Interim Policy P-8, GFC Program Roles,
Responsibilities, and Accountability
Component Program Manager
DESC interim policy P-8 requires the Services to appoint a CPM. It states that the CPM
will develop, coordinate, publish, and disseminate supplemental DoD Fuel Card policy
and training materials for the fuel card programs; provide access to agency-specific
training sites; and ensure all GFC program participants have access to adequate guidance,
training, and assistance in routine program matters.

Agency Program Coordinator
The agency program coordinator must maintain detailed knowledge and understanding of
the agency’s policies and procedures regarding the DoD Card Program and communicate
this information to AIR Card users, accountable officials, managers, and other
responsible officials. The agency program coordinator must:

      establish and ensure execution of the local AIR Card program in accordance with
       local procedures and DESC-sponsored fuel charge card guidelines;
      ensure that alternate agency program coordinators, accountable officials,
       certifying officials, and AIR Card users are properly trained;
      maintain all information for account establishment, including but not limited to
       identification and address of unit or office, DoD activity address code or other
       office identification, accounting data, the vehicles/aircraft/vessels for which
       AIR Cards are to be issued, and point-of-contact information;
      notify the CPM and AIR Card processor of any changes that affect management,
       reporting, or billing;
      receive, verify, and issue DESC-sponsored AIR Cards as appropriate; and
      ensure that AIR Card users are instructed on the appropriate use of the AIR Card.

Accountable Officials
An accountable official is responsible for supporting the certification of payment
vouchers and documents for vendor payment. Accountable officials are to ensure that a
system of internal procedures and controls to cover their portion of the entitlement and
payment-related process is in place to minimize erroneous payments and to ensure that all
procedural safeguards affecting proposed payments are observed.




                                           28
Certifying Officials
The certifying official serves as the primary focal point for receipt of invoices and
obligation of funds. The DESC Retail Management Division is the certifying official for
all noncontract fuel purchases electronically submitted to FES, and the applicable
standard price is billed through the Military Standard Billing System process. Non-fuel
purchases are “split” from fuel purchases and are forwarded to applicable certifying
officials for validation and payment from an operation and maintenance account, paid
through the unit home station payment office or equivalent finance office for Federal
civilian agencies, local law enforcement agencies, and authorized foreign governments.
Certifying officials are responsible for:

      validating the information stated in a voucher, supporting documents, and records,
      ensuring that all purchases are appropriate and charges are accurate within 5 days
       of receipt,
      ensuring the timely reconciliation and payment of all invoices, and upon receipt,
       validating both the fuel and non-fuel charges and that charges are correct in FES,
       and
      creating obligations for fuel charges before the interfund bill is issued and
       processing the DESC interfund bill for fuel transactions.

AIR Card Users
AIR Card Users must understand the policies and procedures for authorized AIR Card
purchases and record-keeping requirements. Purchases of authorized non-fuel items are
the responsibility of the AIR Card user’s Command or authorized agency and are to be
paid by the unit home station payment office.




                                            29
Appendix C. U.S. Government Aviation
Into-Plane Reimbursement Card Program
Hierarchy
Since November 1, 2004, DESC has been the DoD Executive Agent1 for bulk petroleum.2
Within DESC, the GFC Program Management Office is responsible for overall GFC
program management, including establishing and managing a process to assess fuel
charge card usage and payment, establishing and overseeing an organizational structure,
identifying the Military Department GFC program coordinators and component program
managers, and establishing roles and responsibilities for cardholders and Military
Department fuel card managers. In addition, the GFC Program Management Office
disseminates policy and training information, coordinates the enrollment of fuel charge
card users and access to automated fuel systems, and issues instructions on how to use
and manage GFCs, including the AIR Card.

Each Military Department is to have a CPM for the AIR Card, who develops,
coordinates, publishes, and disseminates supplemental DoD fuel card policy and training
materials for fuel card programs; provides access to agency-specific training sites; and
ensures all program participants have access to adequate guidance, training, and
assistance with routine program matters.

Each Major Command is to have an agency program coordinator for the AIR Card
program, who communicates the agency’s policies and procedures to AIR Card users,
accountable officials, managers, and other responsible officials. Individual units have
accountable officials, who are responsible for supporting the certification of payment
vouchers and documents for vendor payment. Figure C.1 displays an organizational
hierarchy for the AIR Card Program.




1
 DoD Directive 5101.8, “DoD Executive Agent (DoD EA) for Bulk Petroleum,” August 11, 2004, assigned
Executive Agent responsibility to the Director, Defense Logistics Agency. In a November 1, 2004,
memorandum, the Director, Defense Logistics Agency transferred the responsibility to DESC.
2
 Bulk petroleum is delivered in volumes greater than 55 U.S. gallons using tank trucks or cars, pipelines,
coastal barges, hydrant systems, and ocean tankers.



                                                     31
                         Figure C.1. AIR Card Program Hierarchy



                                                       DESC



                                              Component Program
                                                  Manager


                                    Major Command/National Guard Bureau
                                        Agency Program Coordinators


                                    Accountable Officials/Certifying Officials



                                                Air Card® Users




Note: See Appendix B for more information on AIR Card roles and responsibilities and on DoD guidance
that assigns them.




                                                  32
Appendix D. Defense Energy Support Center
U.S. Government Aviation Into-Plane
Reimbursement Card Training
To appoint and terminate accountable officials, DESC uses DoD Form 577,
“Accountable Official Appointment/Termination.” On the form, DESC advises all
accountable officials to review and adhere to DoD “Financial Management Regulation,”
volume 5, chapter 33 and DoD Directive 4140.25-M, chapter 16, as annotated on the
DoD Form 577. Upon acknowledgment of their appointment, accountable officials are
also required to review AIR Card policy and take training that is offered on the DESC
Fuel Card Management Web site. The AIR Card accountable official training provides:

      an overview of the AIR Card program,
      the AIR Card program hierarchy and responsibility,
      general policies and procedures,
      guidelines for establishing management controls,
      essential steps for developing an internal operating procedure, and
      ethical rules and disciplinary guidelines.

The online training module includes Web links to Federal and DoD management
regulations governing charge cards, Military Standard Billing System guidance,
information on processing AIR Card disputes, and policy on retaining financial records.
In addition to accountable official responsibilities, the training highlights the primary
responsibilities of those in the AIR Card program hierarchy, including the CPM,
Commands, certifying officials, and AIR Card users.

DESC also offers a short briefing for AIR Card users that provides an overview of the
AIR Card program, points of contact, procedures for use, and information on authorized
purchases. All AIR Card program participants can access DESC’s Web site for
additional policy information, program updates, and contract fuel locations.




                                            33
Appendix E. Data Call for Noncontract Fuel
Purchases

                                          Number of      Gallons      Potential
             Command/Unit                Transactions   Purchased     Savings
Air Force Materiel Command                       8           45,077     $36,974
 Massachusetts Institute of Technology
     Lincoln Laboratory                         8            45,077      36,974
Air Force Reserve Command                     109           437,749    $458,769
 302nd Aircraft Maintenance Squadron           37           130,082     157,555
 914th Airlift Wing                            27           113,814     124,855
 913th Airlift Wing/Operations Group           14            51,793      60,164
 757th Airlift Squadron                         9            31,974      35,775
 96th Airlift Squadron                          9            36,447      28,931
 758th Airlift Squadron                         5            18,515      18,963
 337th Airlift Squadron                         4            44,330      20,025
 440th Airlift Wing/Operations Group            4            10,794      12,501
Air Mobility Command                          287         1,382,079    $422,303
 6th Operations Group                          64            98,972      63,961
 89th Operations Group                         58           137,765      66,219
 437th Operations Group                        39           281,401      36,169
 305th Operations Group                        32           291,205      42,839
 62nd Operations Group                         27           197,140      27,254
 60th Operations Group                         21           165,445      28,593
 43rd Aircraft Maintenance Squadron            16            52,295      58,392
 22nd Operations Group                         12            75,035      36,032
 317th Airlift Group                            7            26,872      30,693
 436th Operations Group                         6            38,746      11,314
 463rd Airlift Group                            5            17,203      20,837
Air National Guard                            121           413,843    $471,549
 182nd Airlift Wing                            17            61,326      80,542
 179th Airlift Wing                            15            48,423      55,706
 Missouri Air National Guard                   13            34,526      37,090
 153rd Airlift Wing                            12            40,803      37,049
 105th Airlift Squadron                         9            31,788      36,772
 127th Wing/171st Airlift Squadron              8            28,426      26,350
 136th Operations Support Squadron              8            22,869      25,761
 130th Airlift Squadron                         6            22,650      27,085


                                         35
                                       Number of      Gallons       Potential
             Command/Unit             Transactions   Purchased      Savings
     rd
 133 Airlift Wing                             6           21,517      $26,676
 156th Airlift Squadron                       5           24,700      32,222
 175th Wing                                   5           12,833      14,976
 166th Operations Support Flight              4           14,345      16,025
 143rd Operations Group                       4           12,717      15,785
 137th Operations Group                       4           15,213      15,050
 115th Airlift Squadron                       3           11,978      14,078
 157th Air Refueling Wing                     2            9,729      10,382
Pacific Air Forces                            5            9,999     $11,910
 374th Operations Group                       5            9,999      11,910
U.S. Air Forces in Europe                    47           30,433     $35,282
 86th Maintenance Group                      45           20,513      23,777
 86th Maintenance Group/Maintenance
    Operation Squadron                       2             9,920       11,505
Total                                      577         2,319,180   $1,436,787




                                      36
Department of the Air Force Comments




                  Click to add JPEG file




                                 37
                           Final Report
                            Reference




Click to add JPEG file
                         Not Included,
                         Contains Personally
                         Identifiable
                         Information




               38
Click to add JPEG file




               39
Click to add JPEG file




               40
®
